No.

IN THE
Supreme Court of the United States_
SHELDON SILVER,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent,

NBCUNIVERSAL MEDIA, LLC,
THE NEW YORK TIMES COMPANY,

Intervenors-Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I hereby certify that the Petition

for Writ of Certiorari in Silver v. United States, No. , complies with the word

 

limitations, as it contains 8,311 words.
I declare under penalty of perjury that the foregoing is true and correct.

Moir Fatur (MEH

Date: July 20, 2020 Meir Feder
